ES, IG-98-034, Information Technology Capital Planning and Investment Control
INFORMATION TECHNOLOGY CAPITAL
PLANNING AND INVESTMENT CONTROL
IG-98-034
Executive Summary
Introduction
In 1996, Congress enacted the Clinger-Cohen Act
(1) to improve the management
of Federal agencies' information technology (IT) resources.  A key
requirement of the Act calls for the head of each agency to develop and
implement a process for maximizing the value of and assessing and managing
the risks of IT acquisitions. According to the Act, this process shall
provide for ". . . the selection of information technology investments to
be made by the executive agency, the management of such investments, and
the evaluation of the results of such investments . . ."
The Office of Management and Budget (OMB) and the General Accounting
Office (GAO) have issued guidance describing the three phases of the IT
capital planning and investment control process:  (1) selection, (2)
control, and (3) evaluation.  We assessed the evaluation phase of NASA's IT
investment process. The evaluation phase requires post-implementation
reviews of major
(2) new IT investments.  OMB defines a
post-implementation review as a diagnostic tool for evaluating the overall
effectiveness of an agency's capital planning process.
We will issue our results on the selection and control phases at a later
date.
Objective
Our objective
(3) was to determine whether NASA has
developed and implemented an effective IT capital planning and investment
control process.
Results of Audit
The NASA IT investment process does not satisfy Clinger-Cohen Act and OMB
Circular A-130 ("Management of Federal Information Resources," February
1996) requirements for post-implementation reviews of major new IT
investments. Without effective post-implementation reviews, NASA is not
putting needed emphasis on evaluating fully operational systems and may not
identify potential process improvements.
While NASA has not made any major new IT investments operational since
the Clinger-Cohen Act became effective in August 1996, the Agency is now
developing eight major IT systems,
(4) which will need post-implementation
reviews when they become operational.
Recommendations and Management's Response
The report contains a recommendation aimed at ensuring that the Agency's
process for evaluating IT investments is fully compliant with Clinger-Cohen
Act and OMB Circular A-130 requirements.  Management suggested changes to
the draft recommendation which we made in the final report.  While
management maintained it had complied with the requirements for
post-implementation reviews, it nonetheless concurred with the
recommendation.  The Chief Information Officer (CIO) has initiated action to
revise the current program and project management process to highlight the
requirements for post-implementation reviews of major IT investments.
Evaluation of
Management's Response
We maintain that the Agency had not satisfied the Clinger-Cohen Act and
OMB Circular A-130 requirements for post-implementation reviews. However,
the action being taken is responsive and should meet the requirements of
the Clinger-Cohen Act and OMB Circular A-130 relative to post-implementation
reviews.
FOOTNOTES
1.  Formerly the Information Technology Management Reform
Act.
2.  NASA defines a major  IT investment as ". . . an
information technology investment that requires special management attention
because of its importance to the Agency mission; or its high development,
operating, or maintenance costs; or its high risk or high return; or its
significant impact on the administration of Agency programs, finances,
property or other resources.  High cost is defined as development,
acquisition, and operations or maintenance costs that exceed $5 million in
1 year or $20 million over the life of the asset or 5 years, whichever is
less."
3.  See Appendix A for a detailed description of our
objective, scope, and methodology.
4.  The major new IT systems are: (1) Earth Observing
System Data and Information System, (2) Integrated Financial Management
Project, (3) Space Station Training Facility, (4) Mission Control Center,
(5) Modification of the Integrated Planning System, (6) Checkout and Launch
Control System, (7) Shuttle Data Center, and (8) Enhanced Huntsville
Operations Support Center.  NASA's fiscal year 1999 through 2003 Information
Technology Implementation Plan shows the total budget for these eight
systems at $1.528 billion.